No:

IN THE
SUPREME COURT OF THE UNITED STATES

EDWIN GONGORA,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, EDWIN GONGORA, pursuant to Sup CT. R. 39.1, respectfully moves for
leave to file the accompanying petition for writ of certiorari in the Supreme Court of the United
States without payment of costs and to proceed in forma pauperis.

Petitioner was previously found financially unable to obtain counsel and counsel was
appointed to represent Petitioner pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon
RULE 39.1 and ยง 3006A(d)(6), Petitioner has not attached the affidavit which would otherwise be
required by 28 U.S.C. ยง 1746.

e /.
Richard Anthony Merlino, Jr., Esq.

101 N.E. Third Avenue, Suite 110

Fort Lauderdale, FL 33301

Tel. No. 954-745-7497

Ft. Lauderdale, Florida 33301
July 2020
